               Office of Inspector General




October 27, 2004

ALFRED INIGUEZ
VICE PRESIDENT, PACIFIC AREA

SUBJECT: Audit Report – Self-Service Vending Program – Pacific Area
         (Report Number DR-AR-05-006)

This is one of a series of audit reports on the Postal Service’s Self-Service Program.
The report summarizes the results of our self-initiated audits on the Self-Service
Vending Program in the Pacific Area (Project Number 04YG016DR000). The
information in this area report will be included in a nationwide capping report that will
provide the Vice President, Delivery and Retail, an assessment of the Self-Service
Vending Program.

                                                   Background
The Self-Service Vending Program, implemented in October 1964, is one of the Postal
Service’s major programs. It provides Postal Service customers with a convenient
alternative for purchasing stamps and other basic Postal Service products after
business hours and without the need to stand in line during business hours.

Nationwide, the Postal Service maintains approximately 30,000 vending
machines (27,000 self-service Postal Service centers and 3,000 other types of
vending equipment) that generated over $1.9 billion in revenue during fiscal years
(FY) 2001 through 2003. The Pacific Area had 11 percent (3,325) of the nationwide
total of vending equipment that generated approximately 22 percent ($144.5 million) of
the nationwide total revenue during FY 2003. During the first quarter of FY 2004, the
Pacific Area had 11 percent (3,3951) of the nationwide total vending equipment that
generated approximately $37.3 million in vending revenue. (See Appendix A for
equipment and revenue details by district.)

                                  Objective, Scope, and Methodology

The objective of our audit was to determine whether the Self-Service Vending Program
is effectively and efficiently meeting program goals of increasing revenue and reducing
operating costs. Specifically, in this review, we determined whether Self-Service

1
    During the first quarter of FY 2004, the Pacific Area had 70 additional vending machines.



       1735 N Lynn St.
       Arlington, VA 22209-2020
       (703) 248-2100
       Fax: (703) 248-2256
Self-Service Vending Program –                                                DR-AR-05-006
 Pacific Area


Vending Program managers effectively redeployed vending equipment that did not meet
minimum revenue requirements in order to maximize revenue, and discontinued the use
of obsolete vending equipment. We also physically observed a judgmental sample of
77 vending machines to determine whether the machines were operational and easily
accessible. For the 3,325 vending machines operating in the Pacific Area during
FY 2003, 429 were classified as obsolete based on Postal Service guidance, while the
remaining 2,896 were classified as current equipment. For the first quarter of FY 2004,
3,395 vending machines were operating in the Pacific Area, of which 439 were
classified as obsolete, and the remaining 2,956 were classified as current equipment.

During our audit, we visited Postal Service facilities in the Bay Valley, Nevada-Sierra,
Sacramento, and Santa Ana Districts. We interviewed managers and employees;
reviewed documentation and applicable policies and procedures; and analyzed data for
all Pacific Area District locations in the Postal Service’s Vending Equipment Sales and
Service System (VESS) for FYs 2003 through the first quarter of FY 2004 to identify
obsolete equipment and equipment that did not meet the minimum revenue
requirements. Although we relied on data obtained from VESS, we did not test the
validity of the data and controls over the system.

Audit work associated with the Pacific Area was conducted from March through
October 2004 in accordance with generally accepted government auditing standards,
and included such tests of internal controls as were considered necessary under the
circumstances. We discussed our observations and conclusions with appropriate
management officials and included their comments, where appropriate.

                                 Prior Audit Coverage
The Office of Inspector General (OIG) has issued three reports related to the objective
of this audit.

Self-Service Vending Program - Tennessee District (Report Number DR-AR-04-003,
dated June 30, 2004), Self-Service Vending Program - Alabama District (Report
Number DR-AR-04-004, dated June 30, 2004), and Self-Service Vending Program -
Atlanta District (Report Number DR-AR-04-002, dated July 1, 2004). The reports stated
that district officials could improve their process for redeploying vending equipment that
does not meet minimum revenue requirements. In FY 2003, 54 percent (857 of 1,573)
of the vending machines in the Tennessee, Alabama, and Atlanta Districts did not meet
the minimum revenue requirements and the districts may have missed revenue
opportunities of approximately $2.7 to $8.5 million by not redeploying this equipment.
Additionally, these districts continued to use 250 obsolete machines and possibly
incurred maintenance and repair expenses. Management agreed with all
recommendations and the actions taken and planned were responsive to the
recommendations.




                                            2
Self-Service Vending Program –                                                                         DR-AR-05-006
 Pacific Area


                                               Audit Results
Opportunities exist for Pacific Area officials to improve the effectiveness and efficiency
of the Self-Service Vending Program and to meet or exceed program goals of
increasing revenue and reducing operating costs. Officials could increase revenue
opportunities by redeploying equipment that does not meet minimum revenue
requirements. Our review indicated that 48 percent (1,404 of 2,896) of the vending
machines operating in the Pacific Area did not meet the minimum revenue requirements
during FY 2003, and the Pacific Area may have missed revenue opportunities totaling
approximately $5.62 million to $20.12 million by not redeploying this equipment.
Further, Pacific Area officials could possibly reduce maintenance and repair costs by
discontinuing the use of obsolete equipment. Additionally, our physical observation of
vending machines in the Pacific Area indicated that overall the machines were
operational and easily accessible, with two exceptions. These exceptions were
presented in a report to the Bay Valley District Manager and are not addressed in this
report.

Redeployment of Vending Equipment

Pacific Area officials could improve their process for redeploying vending equipment
that does not meet minimum revenue requirements. Specifically, our review of the
vending equipment revenue reports for FY 2003 indicated that 47 percent (616 of 1,308)
of the vending machines in the Bay Valley, Nevada-Sierra, Sacramento, and Santa Ana
Districts did not meet the minimum revenue requirements. Vending equipment sales for
these districts were approximately $10.16 million, which was significantly less than the
minimum revenue requirement of $19.39 million. As a result, these districts may have
missed revenue opportunities of approximately $2.61 to $9.23 million by not redeploying
this equipment.2 (See Appendix B, Table 1 for details.)

Additionally, during the same period, our review of the vending equipment revenue
reports indicated that 50 percent (788 of 1,588) of the vending machines in the Arizona,
Honolulu, Los Angeles, San Diego, San Francisco, and Van Nuys Districts did not meet
minimum revenue requirements. Vending equipment sales for these districts were
approximately $12.25 million, which was significantly less than the minimum revenue
requirement of $23.14 million. As a result, these districts may have missed revenue
opportunities of approximately $3.01 million to $10.89 million if district officials did not




2
  For each vending machine, we calculated the shortfall in revenue compared to the established minimum for a
particular machine type and referred to this shortfall as “missed revenue opportunities.” The $2.61 million represents
the minimum total possible missed revenue opportunities after giving consideration to Postal Service guidance, which
requires district officials to review revenue reports and take appropriate actions if a vending machine’s revenue does
not reach plan in three to six accounting periods. The $9.23 million represents the maximum total possible missed
revenue opportunities for the FY 2003 and is calculated by subtracting actual revenues generated from the total of all
machine minimum revenue requirements.




                                                          3
Self-Service Vending Program –                                                                      DR-AR-05-006
 Pacific Area


initiate any redeployment actions for this equipment.3 (See Appendix B, Table 2 for
details.)

During the first quarter of FY 2004, our review of the vending equipment revenue
reports in the Bay Valley, Nevada-Sierra, Sacramento, and Santa Ana Districts
indicated that 47 percent (626 of 1,326) of the vending machines did not meet the
minimum revenue requirements. Vending equipment sales totaled approximately
$1.96 million, which was significantly less than the minimum revenue requirement of
$4.27 million. As a result, these districts may have missed revenue opportunities of
approximately $2.31 million by not redeploying this equipment. (See Appendix B,
Table 3 for details.)

During the same period, our review of the vending equipment revenue reports indicated
that 51 percent (825 of 1,630) of the vending machines in the Arizona, Honolulu,
Los Angeles, San Diego, San Francisco, and Van Nuys District locations did not meet
minimum revenue requirements. Vending equipment sales for these districts were
approximately $2.51 million, which was significantly less than the minimum revenue
requirement of $5.34 million. As a result, these districts may have missed revenue
opportunities approximating $2.83 million if district officials did not initiate any
redeployment actions for this equipment. (See Appendix B, Table 4 for details.)

One of the Self-Service Vending Program’s goals is to increase revenue through the
redeployment of equipment. The Postal Service should redeploy equipment that does
not meet minimum revenue requirements to other locations. Postal Service policy,
Handbook PO-102, Self-Service Vending Operational and Marketing Program,
Chapter 2, Section 256, May 1999 (updated with Postal Bulletin revisions through
December 25, 2003), establishes the minimum revenue requirements for vending
machines. The district retail office is responsible for evaluating equipment revenue to
find the right location for the right machine. If self-service vending equipment is located
in an area where it is unable to generate enough revenue to meet the minimum
requirement, the equipment must be considered for redeployment. If revenue does not
meet the minimum requirement in three to six accounting periods, the district retail office
should place the equipment on a list for redeployment; notify any office where changes
will be made; prepare a typewritten or computer-generated notice, approved through the
district retail office, to be posted in the lobby informing customers 30 days before
removing the equipment; and complete Postal Service Form 4805, Maintenance Work
Order, and move the equipment to a better location.

Bay Valley, Nevada-Sierra, and Santa Ana District officials took action to redeploy
ten vending machines,4 but did not initiate redeployment action for the remaining
machines because of concern for the potential adverse impact on customer service, due

3
  The $3.01 million and $10.84 million represent the minimum and maximum total possible missed revenue
opportunities respectively, for FY 2003 using the same computation methodology as discussed in footnote 2.
4
  This number includes two machines redeployed in the Bay Valley District, six machines redeployed in the
Nevada-Sierra District, and two machines redeployed in the Santa Ana District.




                                                        4
Self-Service Vending Program –                                                                   DR-AR-05-006
 Pacific Area


to the nonavailability of required replacement machines. The Sacramento District did
not initiate any redeployment action for any of their vending machines. Nevada-Sierra
and Santa Ana District officials indicated that the required replacement equipment
needed for the redeployable locations had not been allocated to the district locations.
Bay Valley and Sacramento District officials also indicated that the Self-Service Vending
Program was not the highest priority and limited resources were allocated to the
program. Work efforts were directed to higher priorities such as the Mystery Shopper
Program. By not taking action to redeploy underperforming equipment, the districts
could miss revenue opportunities during the remainder of FY 2004.

District officials expressed concern regarding the Postal Service’s methodology to
establish minimum revenue requirements, and that current requirements are too high in
relation to the machines’ geographic locations. We plan to forward this concern to
Postal Service Headquarters.

We discussed the results with Pacific Area and district officials and they agreed that
they could improve their redeployment process for equipment that does not meet the
Postal Service’s minimum revenue requirements. Area officials indicated that the
Self-Service Vending Program was not the highest priority, and work efforts were
directed to higher priorities such as the automated postal centers.5 Area officials further
indicated that plans are being made to reassess vending machine locations based on
receipt of the automated postal centers.

Recommendation

We recommend the Vice President, Pacific Area, direct the District and Retail Managers
to:

1. Review revenue reports to identify underperforming equipment: notify postmasters of
   vending equipment that generates low revenue: and giving consideration to all
   feasible alternatives, complete all necessary actions to redeploy underperforming
   equipment as often as possible.

Management’s Comments

Management agreed with the finding and recommendation. Pacific Area management
stated that vending coordinators were named in each district who will review revenue
reports to identify underperforming equipment, notify postmasters, and redeploy
underperforming equipment as often as possible. Monthly status reports will be
forwarded to the Area Vending Coordinator, who will review and provide feedback to the
District Retail and Marketing Managers for follow up. Management’s comments, in their
entirety, are included in Appendix D of this report.


5
 Automated postal centers are a newly developed kiosk that provides convenient 24-hour automated access to
purchase stamps as well as many premium delivery services such as Express and Priority Mail.




                                                       5
Self-Service Vending Program –                                                                      DR-AR-05-006
 Pacific Area


Evaluation of Management’s Comments

Management’s comments are responsive to our recommendation. Management’s
planned actions should correct the issues identified in the finding.

Use of Obsolete Equipment

In FY 2003, Bay Valley, Nevada-Sierra, Sacramento, and Santa Ana District officials
continued to use 1956 obsolete machines and possibly incurred maintenance and repair
expenses, although Postal Service policy discontinued the maintenance and repair
support for the machines in June 2000. Our review of vending equipment revenue
reports for the four districts indicated that 94 percent (183 of 195) of these vending
machines did not meet minimum revenue requirements during FY 2003. During the
first quarter of FY 2004, district officials continued to use 1967 obsolete machines and
95 percent (187 of 196) of the machines did not meet minimum revenue requirements.
Pacific Area and district officials stated that they continued to use and maintain this
equipment because of the potential adverse impact on customer service since
replacement equipment was not available. As a result, the Pacific Area possibly
incurred maintenance and repair expenses that may have exceeded the revenue
generated in FY 2003 and the first quarter of FY 2004 by allowing the operation and
maintenance of these machines in the four district locations. We were unable to
determine the amount of repair and maintenance expenses associated with these
machines because the Postal Service does not capture the data for each machine.8
(See Appendix C, Tables 1 and 3 for details.)

Additionally, during the same period, Arizona, Honolulu, Los Angeles, San Diego,
San Francisco, and Van Nuys District officials continued to use 2259 obsolete machines
and possibly incurred maintenance and repair expenses. Our review of the vending
equipment revenue reports indicated that 93 percent (209 of 225) of these vending
machines did not meet minimum revenue requirements during FY 2003. During the
first quarter of FY 2004, these districts continued to use 23410 obsolete machines and
91 percent (214 of 234) did not meet the minimum revenue requirements. As a result,
the Pacific Area possibly incurred maintenance and repair expenses that may have
exceeded the revenue generated by allowing the operation and maintenance of these
machines in the six district locations. We were unable to determine the amount of
repair and maintenance expenses associated with these machines because the Postal

6
  This number does not include six currency changers that do not generate revenue. They are located in the
Sacramento District (five machines) and Santa Ana District (one machine).
7
  This number does not include six currency changers that do not generate revenue. They are located in the
Sacramento District (five machines) and Santa Ana District (one machine).
8
  We plan to address this issue in a capping report to Postal Service Headquarters officials.
9
  This number does not include three currency changers that do not generate revenue. They are located in the
Los Angeles District (one machine) and San Francisco District (two machines).
10
   This number does not include three currency changers that do not generate revenue. They are located in the
Los Angeles District (one machine) and San Francisco District (two machines).




                                                        6
Self-Service Vending Program –                                                DR-AR-05-006
 Pacific Area


Service does not capture the data for each machine. (See Appendix C, Tables 2 and
4 for details.)

Periodically, the Postal Service lists vending equipment as obsolete, meaning that the
equipment has exceeded its expected life cycle and will no longer receive support from
maintenance organizations. All inactive retail vending equipment items must be
reported to the appropriate district material management specialist. When retail
vending equipment items are obsolete or listed as excess, the Postal Service may
consider them for disposal action. Parts from obsolete machines may be salvaged and
stored for maintenance or repair of other compatible equipment. In June 2000, Postal
Service policy listed the obsolete vending equipment that should no longer receive
support from maintenance organizations.

By continuing to use and maintain obsolete machines, the Pacific Area will possibly
incur repair and maintenance costs that may exceed the revenue generated. We
recognize management’s desire to provide customer service; however, because the
Postal Service does not capture repair and maintenance, management has no means of
assessing whether the benefits of operating the obsolete equipment outweigh the costs
to operate it. Pacific Area officials indicated that plans will be made to replace the
obsolete machines with current equipment when the new automated postal centers are
deployed to the districts.

Recommendation

We recommend the Vice President, Pacific Area, direct the District and Retail Managers
to:

2. Consider all feasible alternatives, and complete all necessary actions to eliminate
   repair and maintenance cost for the obsolete equipment.

Management’s Comments

Management agreed with the finding and recommendation and stated obsolete
equipment will be removed by the end of FY 2005.

Evaluation of Management’s Comments

Management’s comments are responsive to our recommendation. Management’s
planned actions should correct the issues identified in the finding.

The OIG considers recommendations 1 and 2 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action(s) are completed. These recommendations should not be closed in
the follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.




                                            7
Self-Service Vending Program –                                             DR-AR-05-006
 Pacific Area



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Debra D. Pettitt, Director,
Delivery and Retail, or me at (703) 248-2300.

/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachment

cc: John A. Rapp
    William P. Galligan
    Winifred G. Groux
    Nancy Digiacomo
    Winton A. Burnett
    Rosemarie Fernandez
    Johnray Egelhoff
    Eduardo H. Ruiz
    Steven R. Phelps




                                          8
Self-Service Vending Program –                                                                    DR-AR-05-006
 Pacific Area



                                 APPENDIX A
                        VENDING MACHINES AND REVENUE

                                                   FY 2003
                                       Pacific Area Vending Machines
               459
                                                            416                             413
     387                                                                                               392


                                                                        323        313
                                     302


                                              221




                         99




   ARIZONA      BAY    HONOLULU      LOS     NEVADA    SACRAMENTO       SAN        SAN      SANTA      VAN
              VALLEY               ANGELES                             DIEGO    FRANCISCO    ANA       NUYS

    11.6%      13.8%     3.0%        9.1%     6.6%          12.5%        9.7%      9.4%      12.4%     11.8%

                                    Percentage of Total Vending Machines (3,325)

                                          FY 2004 - First Quarter
                                      Pacific Area Vending Machines

                467
                                                             421                             414
      398                                                                                               403


                                      326                                324        314


                                               226




                          102




    ARIZONA     BAY     HONOLULU     LOS      NEVADA      SACRAMENTO    SAN        SAN      SANTA      VAN
              VALLEY               ANGELES                             DIEGO    FRANCISCO    ANA       NUYS

    11.7%      13.8%     3.0%        9.6%     6.7%          12.4%        9.5%      9.2%      12.2%     11.9%

                                 Percentage of Total Vending Machines (3,395)




                                                      9
Self-Service Vending Program –                                                                             DR-AR-05-006
 Pacific Area


                VENDING MACHINES AND REVENUE (CONTINUED)
                                                      FY 2003
                                        Pacific Area Revenue ($144.5 Million)

                                                                                                  $32.7




                  $20.3
                                                                                                            $18.8
                                                                          $16.3

                                        $12.9
      $11.9
                                                                                      $10.7
                                                   $9.0         $9.1



                             $2.8



     A RIZONA     BAY      HONOLULU       LOS     NEVA DA SA CRA M ENTO    SA N        SA N       SA NTA     VA N
                 VA LLEY               A NGELES                            DIEGO    FRA NCISCO     A NA     NUYS

      8.2%       14.1%       1.9%       8.9%       6.3%         6.3%       11.3%       7.4%       22.6%     13.0%



                                                FY 2004 – First Quarter
                                         Pacific Area Revenue ($37.3 Million)

                                                                                                 $8.7




                 $5.1                                                                                      $5.1
                                                                          $4.7


                                       $3.3
     $2.8                                                                            $2.8
                                                  $2.3
                                                               $1.8

                            $0.7


    ARIZONA       BAY      HONOLULU     LOS       NEVADA SACRAMENTO    SAN            SAN        SANTA     VAN
                VALLEY                ANGELES                          DIEGO       FRANCISCO      ANA      NUYS

    7.5%        13.7%      1.9%        8.8%       6.2%      4.8%       12.6%         7.5%        23.3%     13.7%




                                                          10
    Self-Service Vending Program –                                                                       DR-AR-05-006
     Pacific Area


                                                APPENDIX B
                                             REVENUE ANALYSIS

    Table 1
                                             FY 2003 Vending Equipment
                            Bay Valley, Nevada-Sierra, Sacramento, and Santa Ana Districts

                                                Machines                          Machines      Minimum         Maximum
                  Total        Machines            Not                Total       Minimum        Missed           Missed
                 Current        Meeting          Meeting            Machines      Revenue        Revenue         Revenue
  District      Vending        Revenue          Revenue               Sales      Requirement   Opportunities   Opportunities
 Locations      Machines      Requirement      Requirement          (millions)    (millions)    (millions)      (millions)

Bay Valley            415              214               201            $3.50          $6.51           $0.95           $3.01
Nevada-Sierra         187               85               102             1.64           3.15            0.43            1.51
Sacramento            304               97               207             2.91           5.68            0.59            2.77
Santa Ana             402              296               106             2.11           4.05            0.64            1.94
 Total              1,308              692               616           $10.16         $19.39           $2.61           $9.23


    Note: Based on the information in Table 1 above, in FY 2003, 53 percent (692 of 1,308) of the machines in the Bay
    Valley, Nevada-Sierra, Sacramento, and Santa Ana Districts met the minimum revenue requirements, and 47 percent
    (616 of 1,308) did not meet the requirements.




    Table 2
                                            FY 2003 Vending Equipment
                      Arizona, Honolulu, Los Angeles, San Diego, San Francisco, and Van Nuys

                                                 Machines                         Machines      Minimum         Maximum
                    Total       Machines            Not               Total       Minimum        Missed           Missed
                   Current       Meeting          Meeting           Machines      Revenue        Revenue         Revenue
   District       Vending       Revenue          Revenue              Sales      Requirement   Opportunities   Opportunities
  Locations       Machines     Requirement      Requirement         (millions)    (millions)    (millions)      (millions)

Arizona                 308              119             189            $2.39          $4.43           $0.39          $2.04
Honolulu                 95               35              60             0.98           1.94            0.26           0.96
Los Angeles             295              160             135             2.01           3.93            0.62           1.92
San Diego               303              198             105             1.22           2.01            0.22           0.79
San Francisco           239              106             133             2.50           4.61            0.63           2.11
Van Nuys                348              182             166             3.15           6.22            0.89           3.07
  Total                1588              800             788           $12.25         $23.14           $3.01         $10.89

    Note: Based on the information in Table 2 above, in FY 2003, 50 percent (800 of 1,588) of the machines in the
    Arizona, Honolulu, Los Angeles, San Diego, San Francisco, and Van Nuys Districts met the minimum revenue
    requirements, and 50 percent (788 of 1,588) did not meet the requirements.




                                                               11
Self-Service Vending Program –                                                                          DR-AR-05-006
 Pacific Area


                               REVENUE ANALYSIS (CONTINUED)
Table 3
                                  FY 2004 – First Quarter Vending Equipment
                        Bay Valley, Nevada-Sierra, Sacramento, and Santa Ana Districts

                                                      Machines                      Machines         Maximum
                       Total           Machines          Not            Total       Minimum            Missed
                      Current           Meeting        Meeting        Machines      Revenue           Revenue
      District       Vending           Revenue        Revenue           Sales      Requirement      Opportunities
     Locations       Machines         Requirement    Requirement      (millions)    (millions)       (millions)

   Bay Valley              423                223              200         $0.64            $1.33             $0.69
   Nevada-Sierra           192                 92              100          0.33             0.65              0.31
   Sacramento              309                 86              223          0.49             1.40              0.91
   Santa Ana               402                299              103          0.51             0.90              0.39
    Total                 1326                700              626        $1.96*           $4.27*             $2.31

*Difference due to rounding.

Note: Based on the information in Table 1 above, in the first quarter of FY 2004, 53 percent (700 of 1,326) of the
machines in the Bay Valley, Nevada-Sierra, Sacramento, and Santa Ana Districts met the minimum revenue
requirements, and 47 percent (626 of 1,326) did not meet the requirements.




Table 4
                                 FY 2004 – First Quarter Vending Equipment
              Arizona, Honolulu, Los Angeles, San Diego, San Francisco, and Van Nuys Districts

                                                       Machines                     Machines         Maximum
                         Total          Machines          Not           Total       Minimum            Missed
                        Current          Meeting        Meeting       Machines      Revenue           Revenue
       District        Vending          Revenue        Revenue          Sales      Requirement      Opportunities
      Locations        Machines        Requirement    Requirement     (millions)    (millions)       (millions)

   Arizona                      319            115              204        $0.49            $1.09             $0.60
   Honolulu                      98             33               65         0.18             0.43              0.25
   Los Angeles                  316            157              159         0.42             1.05              0.63
   San Diego                    304            207               97         0.18             0.34              0.16
   San Francisco                237            103              134         0.51             1.02              0.51
   Van Nuys                     356            190              166         0.73             1.41              0.68
     Total                     1630            805              825        $2.51            $5.34             $2.83

Note: Based on the information in Table 2 above, in the first quarter of FY 2004, 49 percent (805 of 1,630) of the
machines in the Arizona, Honolulu, Los Angeles, San Diego, San Francisco, and Van Nuys Districts met the
minimum revenue requirements and 51 percent (825 of 1,630) did not meet the requirements.




                                                          12
Self-Service Vending Program –                                                                        DR-AR-05-006
 Pacific Area


                                         APPENDIX C
                                     OBSOLETE EQUIPMENT

                                                    Table 1
                                                    FY 2003
                                        Obsolete Vending Equipment
                        Bay Valley, Nevada-Sierra, Sacramento, and Santa Ana Districts

                                                             Machines Meeting
                                   Total Obsolete               Revenue               Machines Not Meeting
       District Locations         Vending Machines             Requirement            Revenue Requirement

  Bay Valley                               44                          2                         42
  Nevada-Sierra                            34                          1                         33
  Sacramento                              107                         5                         102
  Santa Ana                                10                         4                          6
  Total                                   195                         12                        183

Note: Based on the information in Table 1 above, in FY 2003, 6 percent (12 of 195) of the machines in the Bay
Valley, Nevada-Sierra, Sacramento, and Santa Ana Districts met the minimum revenue requirements, and 94 percent
(183 of 195) did not meet the requirements.




Table 2
                                                  FY 2003
                                       Obsolete Vending Equipment
              Arizona, Honolulu, Los Angeles, San Diego, San Francisco, and Van Nuys Districts

                                  Total Obsolete
                                     Vending           Machines Meeting              Machines Not Meeting
       District Locations           Machines          Revenue Requirement            Revenue Requirement

  Arizona                               79                       8                             71
  Honolulu                               4                       1                              3
  Los Angeles                            6                       1                              5
  San Diego                              20                      0                              20
  San Francisco                         72                       5                             67
  Van Nuys                               44                      1                              43
  Total                                 225                      16                            209

Note: Based on the information in Table 2 above, in FY 2003, 7 percent (16 of 225) of the machines in the Arizona,
Honolulu, Los Angeles, San Diego, San Francisco, and Van Nuys Districts met the minimum revenue requirements,
and 93 percent (209 of 225) did not meet the requirements.




                                                        13
Self-Service Vending Program –                                                                           DR-AR-05-006
 Pacific Area



                          OBSOLETE EQUIPMENT (CONTINUED)

                                                      Table 3
                                            FY 2004 – First Quarter
                                        Obsolete Vending Equipment
                        Bay Valley, Nevada-Sierra, Sacramento, and Santa Ana Districts

                                                               Machines Meeting
                                    Total Obsolete                Revenue                Machines Not Meeting
       District Locations          Vending Machines              Requirement             Revenue Requirement

  Bay Valley                                44                          1                           43
  Nevada-Sierra                             34                          0                           34
  Sacramento                               107                          4                          103
  Santa Ana                                 11                          4                           7
  Total                                    196                          9                          187

Note: Based on the information in Table 1 above, in the first quarter of FY 2004, 5 percent (9 of 196) of the machines
in the Bay Valley, Nevada-Sierra, Sacramento, and Santa Ana Districts met the minimum revenue requirements, and
95 percent (187 of 196) did not meet the requirements.




Table 4
                                          FY 2004 – First Quarter
                                       Obsolete Vending Equipment
              Arizona, Honolulu, Los Angeles, San Diego, San Francisco, and Van Nuys Districts

                                   Total Obsolete
                                      Vending           Machines Meeting                Machines Not Meeting
       District Locations            Machines          Revenue Requirement              Revenue Requirement

  Arizona                                79                        6                              73
  Honolulu                                4                        1                               3
  Los Angeles                             9                        4                               5
  San Diego                               20                       0                               20
  San Francisco                          75                        8                              67
  Van Nuys                                47                       1                               46
  Total                                  234                       20                             214

Note: Based on the information in Table 2 above, in the first quarter of FY 2004, 9 percent (20 of 234) of the
machines in the Arizona, Honolulu, Los Angeles, San Diego, San Francisco, and Van Nuys Districts met the
minimum revenue requirements and 91 percent (214 of 234) did not meet the requirements.




                                                          14
Self-Service Vending Program –                        DR-AR-05-006
 Pacific Area


                  APPENDIX D. MANAGEMENT’S COMMENTS




                                 15
